                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE O F INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM



        I n J a n u a r y 2007, a University' notified u s it had conducted a n inquiry and had
        begun conducting a n investigation into a n allegation of plagiarism against one of its
        faculty members (the subject2). The complainant3 h a d asked the subject if he would
        provide additional analysis of her unpublished survey data, a n d they agreed they
        would co-author the resulting manuscript. She provided her material, including the
        survey, to him for review and analysis. The subject, who was also affiliated with a
        research group (the group) a t another University,4 shared the survey with the
        group. Some of the complainant's survey questions were incorporated into a similar
        survey proposed by the group. When the complainant learned the group used some
        of her questions without her permission, she alleged plagiarism by the subject.

         The University conducted the inquiry and investigation. After the investigation,
         but before the Univeriity adjudicated the matter, the subject resigned two of his
         positions, but retained his faculty position, so the University made no final decision
         and took no action.

         Surveys are not typically published by themselves, but with the analyzed data. I n
         this case, the source survey was not published. When the complainant learned of
         the group's survey, she asked the subject to destroy the survey, and the subject
         complied. Thus, the group's survey was essentially a draft document in t h a t i t was
         shredded before it was used to collect any data. Although the subject's actions were
         not particularly collegial, we conclude the subject's action does not rise to the level
         of research misconduct. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
